WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1 500
IMachiavell Farrakhan Siberius ‘American Public University System, Inc., é
— a NET A

(Petitioner) v. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO I am filing this waiver on behalf of all respondents.

© lonly represent some respondents. | am filing this waiver on behalf of the following respondent(s):
{American Public University System, Inc. ]

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

   
 

dr of this Court. Should a response be requested, the response
g Instructions: Mail the original signed form to: Supreme Court,
, Washington, D.C. 20543).

oO Iam not presently a member of th

Date:
(Type or print) Name ‘Larry J Rector : |
© wr. O Ms. © mrs. O Miss

Firm [Steptoe & Johnson PLLC

 

Address [400 White Oaks Blvd. _
City & State Bridgeport, WV Zip |26330

Phone (304-933-8000 Email llarry.rector@steptoe-johnson.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the

name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
{Machiavelli Farrakhan Siberius _— 4
James Victor Flanagan, Esquire

ec: Ryan Anthony Zeli, Esquire
